<html>
<title> - EVALUATING HOW HUD'S MOVING-TO-WORK PROGRAM BENEFITS PUBLIC AND ASSISTED HOUSING RESIDENTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                          EVALUATING HOW HUD'S
                         MOVING-TO-WORK PROGRAM
                          BENEFITS PUBLIC AND
                       ASSISTED HOUSING RESIDENTS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         HOUSING AND INSURANCE

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 26, 2013

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 113-35




                  U.S. GOVERNMENT PRINTING OFFICE
81-770                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e88f9887a88b9d9b9c808d8498c68b8785c6">[email&#160;protected]</a>  

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

GARY G. MILLER, California, Vice     MAXINE WATERS, California, Ranking 
    Chairman                             Member
SPENCER BACHUS, Alabama, Chairman    CAROLYN B. MALONEY, New York
    Emeritus                         NYDIA M. VELAZQUEZ, New York
PETER T. KING, New York              MELVIN L. WATT, North Carolina
EDWARD R. ROYCE, California          BRAD SHERMAN, California
FRANK D. LUCAS, Oklahoma             GREGORY W. MEEKS, New York
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
SCOTT GARRETT, New Jersey            RUBEN HINOJOSA, Texas
RANDY NEUGEBAUER, Texas              WM. LACY CLAY, Missouri
PATRICK T. McHENRY, North Carolina   CAROLYN McCARTHY, New York
JOHN CAMPBELL, California            STEPHEN F. LYNCH, Massachusetts
MICHELE BACHMANN, Minnesota          DAVID SCOTT, Georgia
KEVIN McCARTHY, California           AL GREEN, Texas
STEVAN PEARCE, New Mexico            EMANUEL CLEAVER, Missouri
BILL POSEY, Florida                  GWEN MOORE, Wisconsin
MICHAEL G. FITZPATRICK,              KEITH ELLISON, Minnesota
    Pennsylvania                     ED PERLMUTTER, Colorado
LYNN A. WESTMORELAND, Georgia        JAMES A. HIMES, Connecticut
BLAINE LUETKEMEYER, Missouri         GARY C. PETERS, Michigan
BILL HUIZENGA, Michigan              JOHN C. CARNEY, Jr., Delaware
SEAN P. DUFFY, Wisconsin             TERRI A. SEWELL, Alabama
ROBERT HURT, Virginia                BILL FOSTER, Illinois
MICHAEL G. GRIMM, New York           DANIEL T. KILDEE, Michigan
STEVE STIVERS, Ohio                  PATRICK MURPHY, Florida
STEPHEN LEE FINCHER, Tennessee       JOHN K. DELANEY, Maryland
MARLIN A. STUTZMAN, Indiana          KYRSTEN SINEMA, Arizona
MICK MULVANEY, South Carolina        JOYCE BEATTY, Ohio
RANDY HULTGREN, Illinois             DENNY HECK, Washington
DENNIS A. ROSS, Florida
ROBERT PITTENGER, North Carolina
ANN WAGNER, Missouri
ANDY BARR, Kentucky
TOM COTTON, Arkansas
KEITH J. ROTHFUS, Pennsylvania

                     Shannon McGahn, Staff Director
                    James H. Clinger, Chief Counsel
                 Subcommittee on Housing and Insurance

                   RANDY NEUGEBAUER, Texas, Chairman

BLAINE LUETKEMEYER, Missouri, Vice   MICHAEL E. CAPUANO, Massachusetts, 
    Chairman                             Ranking Member
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
GARY G. MILLER, California           EMANUEL CLEAVER, Missouri
SHELLEY MOORE CAPITO, West Virginia  WM. LACY CLAY, Missouri
SCOTT GARRETT, New Jersey            BRAD SHERMAN, California
LYNN A. WESTMORELAND, Georgia        JAMES A. HIMES, Connecticut
SEAN P. DUFFY, Wisconsin             CAROLYN McCARTHY, New York
ROBERT HURT, Virginia                KYRSTEN SINEMA, Arizona
STEVE STIVERS, Ohio                  JOYCE BEATTY, Ohio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    June 26, 2013................................................     1
Appendix:
    June 26, 2013................................................    31

                               WITNESSES
                        Wednesday, June 26, 2013

Nackerman, Daniel J., President and CEO, San Bernardino County 
  Housing Authority..............................................     8
Reed, Gene, Executive Director, Abilene Housing Authority........     9
Russ, Gregory P., Executive Director, Cambridge Housing Authority    14
Scire, Mathew J., Director, Financial Markets and Community 
  Investment, U.S. Government Accountability Office..............    11
Woods, Larry C., CEO/Executive Director, Winston-Salem Housing 
  Authority......................................................    12

                                APPENDIX

Prepared statements:
    Neugebauer, Hon. Randy.......................................    32
    Nackerman, Daniel J..........................................    35
    Reed, Gene...................................................    45
    Russ, Gregory P..............................................    53
    Scire, Mathew J..............................................    64
    Woods, Larry C...............................................    80

              Additional Material Submitted for the Record

Luetkemeyer, Hon. Blaine:
    Written statement of Douglas Guthrie, President and CEO, Los 
      Angeles Housing Authority..................................    88
    Written statement of John B. Rhea, Chairman, New York City 
      Housing Authority..........................................    91
    Written statement of the New York State Public Housing 
      Authority Directors Association............................    93
    Written statement of the Riverside County Board of 
      Supervisors................................................    95


                          EVALUATING HOW HUD'S
                         MOVING-TO-WORK PROGRAM
                          BENEFITS PUBLIC AND
                       ASSISTED HOUSING RESIDENTS

                              ----------                              


                        Wednesday, June 26, 2013

             U.S. House of Representatives,
                            Subcommittee on Housing
                                     and Insurance,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:20 p.m., in 
room 2128, Rayburn House Office Building, Hon. Blaine 
Luetkemeyer [vice chairman of the subcommittee] presiding.
    Members present: Representatives Luetkemeyer, Royce, 
Miller, Capito, Garrett, Westmoreland, Duffy, Stivers; Capuano, 
Clay, Himes, Sinema, and Beatty.
    Ex officio present: Representative Hensarling.
    Also present: Representative Green.
    Mr. Luetkemeyer [presiding]. This hearing will come to 
order.
    As previously agreed to, each side is going to have 10 
minutes to present opening statements.
    And we also would like to recognize any Members who are not 
on the Housing and Insurance Subcommittee if they are in 
attendance. I ask for unanimous consent that any members of the 
Financial Services Committee present today who are not members 
of the Housing Subcommittee be permitted to participate in the 
hearing.
    With that, the Chair will begin his opening statement, and 
I yield myself 2 minutes.
    Thank you to our panel for appearing today. This hearing 
will allow the subcommittee the opportunity to hear from folks 
on the front lines of housing assistance, those who participate 
in the Moving to Work Program, and those who don't but see the 
potential of the program.
    Millions of Americans are in need of housing assistance. 
However, according to a May 7th Wall Street Journal article, 
the average New York City resident in public housing stays 
there for more than 20 years. That article goes on to quote the 
executive director of the housing authority in Milwaukee who 
says that in some cases you practically get through a 
generation before you get a shot at a unit.
    The average wait for a housing voucher in the Tacoma 
Housing Authority is nearly 8 years. The director of that 
housing authority told the Wall Street Journal that the 
organization ``gives very valuable housing vouchers to a group 
of very fortunate families but then is left with thousands of 
people in desperate need of housing but getting no 
assistance.''
    Families shouldn't be penalized because the Federal 
Government refuses to grant flexibility to their local public 
housing authority. HUD's Moving to Work Program is an important 
tool that allows flexibility in administering housing programs 
on a local, individualized basis.
    The Obama Administration has recognized the successes of 
the program and has publicly called for a substantial 
expansion. HUD has indicated that the program has seen a 
reduction in costs and yet an increase in the number of 
families served. Nevertheless, there are many more that are 
still waiting for assistance.
    It is my hope that with the help of today's testimony, 
Congress can begin to recognize the need and desire for 
expansion of this program. We should allow more families in 
need to access public housing programs, but we must do so in a 
manner that allows for flexibility and efficiency. An expanded 
Moving to Work Program may be just the solution.
    Again, I thank the members of the panel.
    And just one housekeeping note that I probably forgot to 
mention is that I am the vice chairman of the subcommittee, and 
Chairman Neugebauer will not be here today. He has a family 
situation he is addressing at home. And I appreciate your 
indulgence.
    With that, I yield to Ranking Member Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    I would like to publicly express my support and condolences 
to Representative Neugebauer for his family situation.
    First of all, I would like to welcome the panel. I look 
forward to the testimony.
    This is an important issue and one that I actually hope and 
think presents itself for a great opportunity for compromise. 
This particular legislation was on the verge of being marked up 
just 2 years ago, and it got pulled at the last minute for some 
unknown reasons; we are not sure why. But it seemed at the time 
that almost everybody who was involved in this was, if not on 
the same page, at least in the same chapter of the book, and we 
were moving forward on it. I hope that this year we will be 
able to go forward. I think many of us see a value in expanding 
this program and making sure that it works.
    I particularly would like to find ways to make it more 
reportable. All the stories we hear are pretty good. The one 
that I am particularly familiar with in Cambridge is a very 
good program. But, at the same time, I know it is a national 
program. There will be some that are better, some that are 
worse, and some things we can learn from. And I don't think we 
have done a very good job yet of really seeing how this can be 
expanded in a real way. I want it to be, but I want to make 
sure that it is done thoughtfully and properly as opposed to 
just done haphazardly because it has a good title.
    I look forward to this hearing, and I look forward to 
actually, hopefully, drafting a bill later on this year.
    I yield back.
    Mr. Luetkemeyer. Thank you, Mr. Capuano.
    With that, I yield 3 minutes to Chairman Hensarling, the 
chairman of the full Financial Services Committee.
    Chairman Hensarling?
    Chairman Hensarling. Thank you, Mr. Chairman.
    The topic of today's hearing is how HUD's Moving to Work 
Program benefits public and assisted housing residents.
    When Congress passed the Program in 1996, it was to give 
public housing authorities the flexibility to innovate and 
design local strategies to meet local needs, as well as 
encourage greater housing choice and self-sufficiency for low-
income families. And while the Program has shown great success 
in places like Atlanta and Chicago, after 17 years, Moving to 
Work shamefully remains only a demonstration program at HUD, 
with a meager 35 participating PHAs out of 3,100 nationwide. So 
I hope we can use this hearing to learn more about how to 
increase the number and successes of MTW participants.
    But we need to do more than simply talk about the benefit 
of the program. Fundamentally, we need to rethink public 
housing. Let's not lose sight of the most important fact: Our 
system of public housing is failing, and by refusing to reform 
and innovate, we elected officials are failing the very people 
who are in most need of our assistance.
    Many share the blame. Too many have turned a blind eye to 
the very real human tragedy of generational cycles of poverty 
that we see in so many communities. Too many others share the 
blame for thinking that simply spending more and more money on 
failed programs is an acceptable form of compassion. 
Particularly, it is not when it interferes with the 
downtrodden's unalienable right to the pursuit of happiness, 
which cannot be separated from earned success.
    Consider this: The Fiscal Year 2012 gross discretionary 
budget authority for HUD was $43.26 billion, and yet advocates 
for a greater role in housing are just as dissatisfied with the 
results we get for those dollars as are critics of HUD. How can 
it be that year after year we can spend so much money to 
achieve so little and fail so many?
    The fault, I would argue, is not with good intentions but 
rather our inability to recognize that more of the same will 
not change the fundamental equation. We need new ideas, bold 
new ways of approaching the problems of poverty and housing 
affordability, new strategies that are premised on choice and 
self-sufficiency.
    For too long, we have defined success in housing by how 
many vouchers we give out. In the 21st Century, we need to 
define success by how many people we help graduate from Federal 
assistance to lives of dignity, self-sufficiency, and 
happiness. Every day that we fail to hold ourselves to that 
high standard is another day that we have failed the very 
people we claim we want to help.
    Thank you, Mr. Chairman, for holding this hearing. I yield 
back.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    And I would be remiss if I didn't offer you the opportunity 
to make an introduction of a very special guest with you today.
    Chairman Hensarling. On a point of personal privilege, this 
is my 11-year-old daughter, Claire, from Dallas. This is 
``daughter goes to work with daddy day.''
    Thank you very much, Mr. Chairman.
    Mr. Luetkemeyer. Very good. Claire, welcome to the hearing.
    With that, Mr. Royce is recognized for 1 minute.
    Mr. Royce. I would like to thank all our witnesses for 
being here today. In particular, I would like to welcome Dan 
Nackerman, who is the executive director for the Housing 
Authority of San Bernardino County, which serves part of Mr. 
Miller's district and part of my district.
    And in San Bernardino we have a success story, not just for 
the housing authority and its leadership but, more importantly, 
for the residents that it serves. The Moving to Work Program 
has provided local flexibility, it has promoted creative 
housing solutions, and it has moved the local residents there 
to self-sufficiency.
    And so, one of the things we look at is, with the large 
deficits, it is important to note that Moving to Work allows 
agencies to lower their costs while at the same time serving 
far more people. So, during this hearing today, I hope we 
tackle some of the obstacles to making this a permanent program 
and answer any questions about how best to expand it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Luetkemeyer. Thank you.
    With that, we will go to Mr. Miller of California for 2 
minutes.
    Mr. Miller. Thank you, Mr. Chairman.
    I want to thank the ranking member for mentioning my bill 
that we had before us in the previous term. We got it out of 
subcommittee, but we could not get it to final passage. But 
this is an issue that is very important to me. I helped San 
Bernardino come into Moving to Work in 2008, and they are an 
amazingly great success story.
    And it is good to see Mr. Woods with us today. I remember 
having all the national associations, and I asked the question, 
who would like to become a Move to Work, and every member of 
the audience raised their hands. And I recall Mr. Woods saying 
something that was very germane to this hearing. He said, 
``Trust me, and hold me accountable.''
    The problem we have in government is we go before the 
voters every 2 years and we say, ``Trust us, elect us.'' And 
then when those same people who are doing a good job come back 
to us and say, ``Give me a chance, trust me,'' we don't trust 
the same people we reach out to very often for trust. And these 
are the people who provide help to the people at the local 
level. They know the people. They understand the needs of the 
local people. This one-size-fits-all approach we have had for 
years just does not work.
    My housing agency in San Bernardino County has helped more 
people get through the system. We have brought more people in 
who need help, and we have done it with far less funds. And in 
the last bill I introduced, we put in very stringent oversight 
that made sure that you were held accountable. You had to work 
within a framework that was reasonable. And everybody has done 
it.
    The problem is that 1 percent of all our housing agencies 
in this country whom we trust to be Move to Work; that is 39 
PHAs out of 3,000. And the problem I have, when you have all 
these PHAs coming to Washington saying, you give us less money, 
we are willing to make it work with less money, but give us 
flexibility to look the people in the eye that we know need 
help and help them the way we know that will help them and get 
them through the system to self-sufficiency to bring those who 
have been on the waiting list for 8 or 10 years into the system 
to help them.
    It is time for Congress to trust the people who trust us. 
But yet, at the same time, we are going to hold you 
accountable. But I am looking forward to having this become law 
and letting you do your job.
    I yield back the balance of my time.
    Mr. Luetkemeyer. Thank you, Mr. Miller.
    Mrs. Capito from West Virginia for 2 minutes.
    Mrs. Capito. Thank you, Mr. Chairman.
    And I would like to thank the witnesses for coming today to 
discuss this very important topic.
    On May 6, 2013, the Wall Street Journal published an 
article, quoting, ``Public housing agencies push to impose time 
limits and work requirements for aid recipients.'' This piece 
highlighted the value of Moving to Work as a successful 
alternative to the traditional structure of public assistance 
under the 1937 Housing Act.
    Today, there are rules and restrictions in place for many 
public housing authorities that simply do not allow tailored 
solutions to circumstances that are unique in every community. 
I live in rural West Virginia. Solutions in rural West Virginia 
are not going to be the same as Massachusetts or Connecticut or 
Texas. I am not sure anything is the same as Texas, is it?
    But anyway, local agencies are restricted in how they 
design and utilize their funds, and thus cannot benefit from 
the most effective and cost-effective approaches to assist 
individuals and families. In Moving to Work, they are able to 
blend their funding sources, experiment with policies like work 
requirements and time limits, leverage existing resources, and 
develop partnerships. It sounds like a winning formula. The 
Moving to Work Program offers flexibility and discretion to 
develop and implement strategies to best serve needs in your 
jurisdiction.
    According to the Journal article, an average person in New 
York City stays in public housing for almost 21 years. 
Meanwhile, as has been stated before, waiting lists for 
families seeking assistance are growing longer and longer. 
These waiting lists are a serious problem, and I anticipate we 
will hear in the testimony today from our witnesses who are 
experiencing this.
    As the subcommittee has heard before, the alternative 
methods of providing housing assistance offer insight into a 
more efficient housing assistance configuration. I look forward 
to the unique experiences I am sure our witnesses are eager to 
share.
    And I thank the chairman for his time. Thank you.
    Mr. Luetkemeyer. Thank you.
    With that, the gentleman from Georgia, Mr. Westmoreland, is 
recognized for 2 minutes.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    And I personally want to thank Mr. Nackerman, Mr. Reed, Mr. 
Woods, and Mr. Russ for what you do, because we have gone and 
met with our public housing authorities and talked to them and 
seen the sincerity that they have for what they do. And so I 
want to thank you for working in your cities and your 
communities.
    It is my fundamental belief that we have local solutions to 
local problems, and that is one of the reasons I am such a big 
supporter of expanding the Moving to Work Program.
    Unfortunately, some of those housing authorities who want 
to pursue the innovation to help solve some generational 
poverty are handcuffed by outdated HUD rules and regulations. I 
want to encourage and motivate people to better themselves, to 
become self-sufficient so they no longer rely on the government 
for the roof over their heads or possibly the food in their 
stomachs. And that is why I have visited so many of these 
housing authorities and gone through them and talked to the 
individuals who live there and I have seen their desire to move 
and to grow in society.
    Moving to Work gives local communities the flexibility that 
they need to address these concerns. In turn, those who once 
relied on the government reach the American dream and live life 
to its fullest potential.
    Moving these Americans through this innovative Moving to 
Work Program subsequently will allow more public housing 
authorities to serve the needs of others. Public housing 
authorities are clamoring, at least in my district, for the 
access to move to this Moving to Work Program because they know 
more Americans can be helped through this Program than under 
the traditional HUD programs.
    Without an overhaul, this Congress could be condemning 
Americans to a cycle of poverty from which they cannot escape. 
Mr. Chairman, let us not leave these Americans behind. Let us 
empower local communities and give all Americans the tools that 
they need to be self-sufficient. Moving to Work must be 
expanded to allow high-performing public housing authorities to 
give a hand to Americans to reach their potential. I urge this 
committee to move quickly on a bill to accomplish this goal.
    And I yield back.
    Mr. Luetkemeyer. Thank you.
    The gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I thank you and the 
ranking member for allowing me to be a part of this hearing.
    I also thank the witnesses for appearing. I have had an 
opportunity to peruse all of your statements, and I want you to 
know that I think very much of each statement, but I want to 
single out Mr. Reed, if I may, because he said a couple of 
things in his statement that I would like to call to your 
attention.
    Perhaps you will say them, as well, Mr. Reed. Some things 
bear repeating, so if you say them, as well, I think it will 
bode well for us.
    One statement you make that I find favor with is the notion 
that we can recertify persons on a basis other than doing it 
annually. And you have indicated that every 2 years or possibly 
every 3 years for elderly and disabled families with fixed 
incomes may be of benefit and that this helps us with our 
operating costs, in terms of helping us to reduce the cost.
    Now, what I really want to focus on is this next part of 
your statement over on page 7. And I would like to just read 
from page 7, if I may. You indicate one specific perceived 
notion that many Americans have about assisted housing programs 
is that low-income families are getting rich off of their tax 
dollars, and you go on to say that this could not be further 
from the truth.
    If you follow the money in our programs, you will see that 
these Federal funds benefit the local economy much more than 
they benefit the participants on the program. I think this is 
good for us to let the public know, that their dollars benefit 
more than the actual participants in the program.
    You go on to indicate that the reinvestment happens in the 
following ways. You indicate that bank accounts are set up, 
which is a good thing, to have persons engaging in commerce, to 
take up the notion that they should have bank accounts and 
that, in so doing, the bank benefits. You indicate that 
landlords who receive payments pay property taxes. You indicate 
that area contractors secure contracts. You go on to talk about 
how vendors secure contracts to maintain the housing authority 
IT system, the vehicle fleets. You mentioned that the PHAs are 
able to create jobs in the community.
    And I want to just say this: While we are helping persons 
who are indeed in need of help with these programs, the 
community benefits as well. And we should never forget that 
these dollars turn over in the community and that jobs are 
created in these communities. We should see the persons who are 
benefiting from the programs not as a liability but also as an 
asset to the community. They are also human beings who need a 
hand up. Many of you have addressed the notion of these 
programs being a hand-up as opposed to a handout.
    So I thank you for the testimony. I have had a chance to 
peruse it, and I look forward to hearing more details about 
what you plan to do.
    I yield back.
    Mr. Luetkemeyer. Thank you.
    I will now introduce today's panel: Mr. Daniel Nackerman, 
President and CEO, San Bernardino County Housing Authority; Mr. 
Gene Reed, Executive Director, Abilene Housing Authority; Mr. 
Matthew Scire, Director, Financial Markets and Community 
Investment, U.S. Government Accountability Office; and Mr. 
Larry Woods, CEO/Executive Director, Housing Authority of the 
City of Winston-Salem.
    And Mr. Capuano will introduce our last guest today.
    Mr. Capuano. Thank you, Mr. Chairman.
    I just want to introduce Mr. Gregory Russ, who is the 
Executive Director of the Cambridge Housing Authority, in 
Cambridge, Massachusetts.
    And I want to introduce him with a warning, especially to 
my colleagues on the other side of the aisle. Be warned, you 
might find some things you agree with him on. And I know it 
won't be good to tell people at home you agree with anybody in 
Cambridge on anything, so find a way to couch those terms so 
you can protect yourself at home.
    Thank you, Mr. Chairman.
    Mr. Luetkemeyer. Thank you for the warning there, Ranking 
Member Capuano. We will take that to heart.
    Each of you will be recognized for 5 minutes to give an 
oral presentation of your testimony. And without objection, 
each of your written statements will be made a part of the 
record.
    Just a quick primer on the lights. If you have been 
watching: green means go; yellow means you have a minute to 
start wrapping up; and red means time is up. We have the same 
set of lights up here. Members are allowed 5 minutes to ask you 
questions, and we will try and keep it within that framework.
    Mr. Nackerman, you are recognized for 5 minutes.

   STATEMENT OF DANIEL J. NACKERMAN, PRESIDENT AND CEO, SAN 
              BERNARDINO COUNTY HOUSING AUTHORITY

    Mr. Nackerman. Thank you, Vice Chairman Luetkemeyer, 
Ranking Member Capuano, and honorable members of the 
subcommittee.
    And thank you, Mr. Chairman. It took me 2 days to memorize 
the last name of the chairperson, so thank you for throwing me 
off to start the day.
    Mr. Luetkemeyer. You did very well.
    Mr. Nackerman. Okay.
    It is an honor for me to appear here today to discuss how 
we can move forward in expanding the great work beaconed by the 
existing MTW demonstration sites.
    In San Bernardino, California, we know firsthand how MTW 
can eliminate waste, serve more families, improve customer 
service for our residents, and more effectively invest taxpayer 
dollars to serve lower-income families and seniors who are in 
great need throughout this country.
    As president and CEO of the Housing Authority of the County 
of San Bernardino, I have assisted local residents for 23 years 
at 5 different California housing authorities, including 
executive director and deputy director at the Marin County 
Housing Authority, Contra Costa Housing Authority, City of 
Richmond Housing Authority, and as senior manager at the 
Oakland Housing Authority.
    Our jurisdiction--Mr. Miller and Mr. Royce are our leaders 
there--is located east of Los Angeles, containing 24 cities and 
covering the largest county in the contiguous USA. That portion 
of the county actually has a greater population than 15 of the 
country's States. This region likely contains every aspect of 
your own represented communities, such as rural areas, cities 
of both wealth and poverty, urban treasures and ills, and, of 
course, ongoing needs for every type of housing.
    This backdrop of our region creates an even greater need 
for the hub in the wheel, the launchpad for all: stable, safe, 
affordable housing. Our waiting lists at our agency have 
reached over 45,000 at times.
    As you have heard or will hear today, this demonstration 
program--which is really not a program but a broad waiver of 
regulations kind of redesigned at a local level--which also has 
tremendous HUD oversight by an excellent HUD staff which has 
allowed housing authorities to operate much more efficiently 
and effectively.
    Our housing authority currently has 22 approved MTW 
activities. We are here to testify that Moving to Work works. 
It can make rents much more simple and fair. For an example, we 
are about to start a streamlined assisting program where rents 
will start at 21 percent of gross income, go up by 2 percent 
every year for a couple of years, and then stabilize. That 
means if families make more money, they get to keep their money 
instead of have their rent go up--not a disincentive to 
employment.
    Moving to Work works locally such as abolishing the HUD 
fair market rent system and having a market-like study to pay 
rents. Everybody here, at HUD and the housing authorities, will 
testify that HUD fair market rent is not fair and it is not the 
market. That allows deconcentration of residents, residents to 
move into better neighborhoods with better schools and that 
kind of thing.
    We are also one of the few agencies in the country--and I 
want to emphasize that, that we are one of the few MTW agencies 
instituting trial time limits for new families pulled from the 
housing choice voucher waiting list, or Section 8 waiting list. 
This 5-year strategy, applicable to non-senior and non-disabled 
adults only, is a bold initiative that changes the premise that 
once a person is in the program, they get to stay forever. It 
makes space on our waiting lists. It has kind of a life coach 
and counselor for each resident entering the program. And it 
really is helping to advance the quality of life of the persons 
we serve.
    I mentioned the waiting lists. Some of our agency neighbors 
have waiting lists which have more than 100,000 families 
waiting to get in. Many will never get in. Those families are 
affected by the policies of HUD and the policies locally, yet 
those waiting-list families really don't have a voice and are 
not heard.
    We have an increase in the total number of families served 
due to MTW. We have an increase for non-housing services 
related to school, mental health counseling, transportation. We 
have an increase in the number of effective initiatives that we 
can now fund. We have a tremendous decrease in the number of 
staff hours utilized for some of these old-fashioned, out-of-
date regulations.
    In conclusion, Moving to Work works. We urge your committee 
to help make it permanent and to help other public housing 
authorities move forward with creative, timely, life-changing 
advancements, even in this time of program budget cuts.
    Thank you for this opportunity to testify today about our 
local strategies, reduced costs, permanent and expanded Moving 
to Work, and the same levels of people served.
    [The prepared statement of Mr. Nackerman can be found on 
page 35 of the appendix.]
    Mr. Luetkemeyer. Thank you, Mr. Nackerman.
    Next, Mr. Reed for 5 minutes.

  STATEMENT OF GENE REED, EXECUTIVE DIRECTOR, ABILENE HOUSING 
                           AUTHORITY

    Mr. Reed. Vice Chairman Luetkemeyer, Ranking Member 
Capuano, and members of the Subcommittee on Housing and 
Insurance, I thank you for the opportunity to testify.
    My name is Gene Reed. I am the executive director of the 
Abilene Housing Authority in Abilene, Texas. I have 19 years of 
combined leadership experience between the affordable housing 
industry and the gas and electric utility industry.
    During my time in the affordable housing industry, I have 
worked 4 years at the Cincinnati Metropolitan Housing 
Authority, which is the 17th largest in the country, and 5 
years for the Abilene Housing Authority. My housing authority 
is authorized to serve 1,536 vouchers in a 20-county area, 213 
public housing units, and a 170-unit affordable/market complex 
in Abilene, Texas.
    Over the past 3 years, public housing authorities have 
experienced unprecedented funding cuts in our programs. 
Unfortunately, the cuts come at a time when unemployment rates 
are still extremely high. Hardworking American middle-income 
families who never thought about utilizing affordable housing 
programs now qualify. It is my hope that funding for our 
programs will stabilize. Our programs only represent 2 to 3 
percent of the overall Federal budget.
    In addition to the challenges that hardworking Americans 
are facing in the current economy, PHAs are also faced with the 
challenge to meet the same regulatory requirements that we were 
required to meet when we were receiving higher funding amounts.
    Today, I am speaking from the perspective of housing 
authorities wanting access to MTW. There are four points that I 
would like to make in support of expanding MTW to housing 
authorities nationwide.
    First, MTW can assist housing authorities by allowing them 
to have the flexibility to change, alter, and remove costly 
practices required under the housing choice voucher and public 
housing programs.
    Due to deep budgets cuts over the past 3 years, regulatory 
reform that the MTW Program allows is increasingly needed by 
PHAs nationwide. Again, given our current and projected funding 
situation, MTW provides PHAs with the ability to determine what 
is important in their programs and communities and provides 
them with the ability to manage those processes in a way that 
are in the best interests of the housing authority participants 
and the community in which we serve.
    I would like to be clear on this point. My intent for 
allowing more regulatory reform is to allow better management 
of operational funds and to continue to abide by the rules. It 
is not my intent to lose the focus on our mission of housing 
low-income families.
    Second, MTW has a component which allows PHAs to properly 
manage the full range of funding that they receive. Presently, 
PHAs receive funding from the government in four areas: two in 
the HCV Program; and two on the public housing program. Each 
pot of money is designated for specific activities. The 
ultimate goal is to provide decent, safe, and sanitary housing 
for low-income families while they live in units provided by 
the PHA. Why should it matter if PHAs want to move money from 
one program to another to accomplish this goal?
    Third, I am a big advocate of assisting families to become 
self-sufficient. During my time at AHA, we have grown our 
family self-sufficiency program from 5 participants to 50 
participants. Over the past 18 months, we have had 2 families 
complete the FSS program early and purchase a home. While our 
efforts have been substantial for a program of our size, having 
access to MTW would provide AHA with more tools to assist more 
families to move toward self-sufficiency.
    Fourth, public housing funding has been, again, on the 
decline for years. In the past 3 years, I have seen AHA's 
capital funds absorb a 22 percent cut. AHA typically received 
anywhere between $400,000 to $600,000 in operating subsidy 
annually. In 2012, we didn't receive any subsidy at all.
    Looking for new ways to increase funding streams outside of 
Federal funding is paramount. MTW gives PHAs the ability to 
combine funding to meet the PHAs' strategic plans, one of which 
includes leveraging resources to drive new development and 
rehab.
    AHA is currently looking for ways to generate revenue 
outside of the traditional government-provided funding streams. 
Development activities such as low-income housing tax credit 
programs, et cetera, will allow PHAs the opportunity to move 
away from dependence on traditional government funding. This, 
in turn, will assist the government in reducing the Federal 
budget.
    In summary, I would like to once again thank the members of 
the Housing and Insurance Subcommittee for allowing me to share 
my views on how MTW can better assist PHAs during these budget-
cut times. It is my hope that in the near future, PHAs across 
the country will be given the necessary flexibility to best use 
the resources we have at our disposal. Programs with MTW-like 
features are needed to provide PHAs the flexibility needed to 
continue to service the housing needs of low-income families 
nationwide.
    Thank you.
    [The prepared statement of Mr. Reed can be found on page 45 
of the appendix.]
    Mr. Luetkemeyer. Thank you, Mr. Reed.
    Next, Mr. Scire. Did I pronounce that correctly?
    Mr. Scire. It is ``Scire.''
    Mr. Luetkemeyer. ``Scire.'' Thank you.

 STATEMENT OF MATHEW J. SCIRE, DIRECTOR, FINANCIAL MARKETS AND 
  COMMUNITY INVESTMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Scire. Vice Chairman Luetkemeyer, Ranking Member 
Capuano, and members of the subcommittee, thank you for the 
opportunity to be here today to discuss our work on HUD's 
Moving to Work Program.
    We conducted our study at the request of this subcommittee 
and focused on program results, agency monitoring, and 
potential expansion. Overall, our report raised serious 
questions about HUD's evaluation of program results, 
identification of lessons learned, and establishment of 
monitoring standards. We made a number of recommendations, and 
HUD has recently taken action in response to several of them.
    With regard to program results, we found that HUD had not 
required that annual performance information reported by MTW 
agencies be quantifiable and outcome-oriented. Thus, the 
results of like activities could not be readily evaluated. 
Also, HUD had not identified performance measures that might be 
used in assessing the effectiveness of the program as a whole. 
Such performance measurement weaknesses limit efforts to 
comprehensively evaluate program results. HUD also lacked a 
systematic process for identifying lessons learned or for 
promoting practices more broadly.
    We made a number of recommendations, including that 
performance information be quantifiable and focus on outcomes, 
that HUD develop a strategy for quantitatively assessing 
effectiveness of similar activities and the program as a whole, 
and that HUD create a systematic process for identifying 
lessons learned.
    With regard to program oversight and monitoring, we found 
that HUD had not defined key terms needed for ensuring that 
program purposes are addressed and requirements are met. For 
example, the purpose of increasing housing choice had not been 
defined. Also, the requirement of serving a comparable mix of 
families had not been defined, and HUD had not assessed 
compliance with that particular requirement.
    Finally, HUD had not performed required annual risk 
assessments of the program and was not verifying reported 
performance information. Here, we recommend that HUD do much 
more to define key program terms, assess compliance with 
statutory requirements, and verify the accuracy of agency-
reported information.
    HUD has taken some important steps in addressing these 
recommendations. Most notably, it has revised its reporting 
form to collect standard, quantifiable information on program 
activities. This revised form was just approved by OMB last 
month.
    Ultimately, the weaknesses we observed in performance 
measurement and evaluation make it difficult to assess the 
results of the program and the potential benefits of expansion. 
Likewise, the lack of a systematic process for identifying 
lessons learned and bringing them more widely to the remaining 
housing agencies limits the potential for the MTW Program to 
serve as a test platform for innovation.
    Looking ahead, the demand for most efficiently using 
limited budgetary resources and the continuing demand for 
affordable rental housing for households with limited income 
make it more pressing that HUD, working with Congress, work to 
improve the efficiency of housing assistance programs. 
Improving the capacity of the MTW Program to serve as a testbed 
has the potential to help in this effort, but only if it 
clearly demonstrates the impact that flexibilities have on 
reducing costs, helping households become self-sufficient, and 
increasing housing choice.
    This concludes my opening remarks. Thank you again for the 
opportunity to speak today. I would be glad to answer any 
questions you may have.
    [The prepared statement of Mr. Scire can be found on page 
64 of the appendix.]
    Mr. Luetkemeyer. Thank you.
    Mr. Woods, you are recognized for 5 minutes.

 STATEMENT OF LARRY C. WOODS, CEO/EXECUTIVE DIRECTOR, WINSTON-
                    SALEM HOUSING AUTHORITY

    Mr. Woods. Vice Chairman Luetkemeyer, Ranking Member 
Capuano, and members of the subcommittee, good afternoon. Thank 
you for the opportunity to testify.
    I am Larry C. Woods, chief executive officer for the 
Housing Authority of the City of Winston-Salem, North Carolina. 
I have over 27 years of experience in the field of community 
and economic development. The authority I represent has 
approximately 1,300 public housing units. We administer 4,600 
housing choice vouchers. We manage market-rate units and two 
office buildings.
    In 2010, we opened our housing choice voucher waiting list 
for only 5 days and received over 6,000 applications. It would 
take approximately 10 years to realize enough voucher turnover 
to address these applications. Our public housing waiting lists 
are currently at 130 percent of our total units.
    These difficult days in our economy, given the current 
pressures on the Federal budget, it is now more important than 
ever to empower local housing authorities to do all they can 
with the available funding. Moving to Work, with this program 
and funding flexibility is the most effective means to address 
the needs with a positive and long-lasting effect for both 
families and our community.
    I testified before this subcommittee in October 2011. I 
asked at that time to be an MTW agency, and I asked that you 
hold me accountable. I am here today to renew my request and my 
commitment for you to hold me accountable.
    In preparation to becoming an MTW agency, we designed and 
implemented a program, the PATH Program, that will reduce 
families' dependency on Federal support, break generational 
poverty, and provide a controlled transition for families to 
move back into the mainstream, thereby opening up new 
opportunities to help others.
    The PATH Program is a hands-up assistance approach to 
families. All program activities are based on a unique, 
permanent, and positive exit strategy for the family. The 
personal skills portion of the program has several components, 
such as full educational services, job training, people skills 
training, employment placement, retention, services, and 
financial literacy. These services are available at no cost to 
all tenants.
    Another component of the PATH Program is STEP-UP housing. 
These units mimic traditional market rate communities and serve 
to ease the families' transitions back into mainstream housing.
    Each family's needs for housing and assistance to reach 
self-sufficiency are clearly unique. So are the issues and 
solutions for each city. No single standard or federally 
prescribed solution will work since the issues in Winston-Salem 
are not the same as in other cities across America.
    MTW contracts need to be for an indefinite term. This would 
allow housing authorities to undertake long-term planning and 
continue to develop programs as local circumstances and their 
economy changes.
    MTW is the solution for Winston-Salem, and the PATH and 
STEP-UP housing are some of our tools. We have gone as far as 
we can, as a traditional housing authority can under existing 
rules and regulations. We are at a huge risk of losing the 
momentum that has been built amongst our community partners. I 
need full flexibility in funding the programs with the greatest 
impact and designing programs that will work in my City. 
Without MTW, I cannot fully execute the PATH Program, and 
thereby I cannot achieve the above goals and objectives.
    I invite you to come to Winston-Salem and see what we are 
doing, meet with our partners, my board of directors, staff, 
and city officials. Vice Chairman Luetkemeyer and members of 
this subcommittee, again, I ask you to give me full, flexible 
MTW and hold me accountable.
    This concludes my testimony. Thank you for the opportunity. 
I am happy to answer any questions you may have, and provide 
greater detail about our PATH Program and our immediate need 
for MTW authorization now.
    Thank you.
    [The prepared statement of Mr. Woods can be found on page 
80 of the appendix.]
    Mr. Luetkemeyer. Thank you, Mr. Woods.
    And finally, Mr. Russ for 5 minutes.

  STATEMENT OF GREGORY P. RUSS, EXECUTIVE DIRECTOR, CAMBRIDGE 
                       HOUSING AUTHORITY

    Mr. Russ. Thank you.
    I would like to thank Vice Chairman Luetkemeyer, Ranking 
Member Capuano, and the other members of the subcommittee for 
allowing me to speak here today.
    My name is Gregory Russ, and I am the executive director of 
the Cambridge Housing Authority. And I have been involved with 
the public housing program for over 40 years, in fact, even 
before there was a voucher program. So that is a long time ago 
now. I have worked in small, medium, and large housing 
authorities, including Chicago and Philadelphia. And I also 
served at HUD in the Troubled Agency Recovery Program in the 
mid-1990s.
    In my testimony today, there are a couple of things, some 
ideas, some snapshots of Cambridge, things that I would like 
the committee to be aware of.
    Why is MTW so important to us, and why do we believe that 
its expansion is critical to the public housing and related 
programs?
    In our community, we have to balance four things. I have to 
balance the mission that the 1937 Housing Act has given us. I 
have to balance the market demands that the real estate market 
in Cambridge dictates. I have to look at our family profile and 
their needs, which is different from some other housing 
authorities and different even from other communities in 
Massachusetts. And now, because of the capital funding, I have 
to make sure that we preserve hard units.
    That I can do that, that our organization is capable of 
walking across those four things, is a revolutionary statement. 
And I can make it because we have Moving to Work. It is a 
unique business model in terms of how you can have a national 
housing act and respect local decisions and local issues. It is 
a very unique model that I believe could benefit my colleagues 
here at the table and many, many others.
    What is Cambridge like? We are a city of about 105,000 
population compressed into 6\1/2\ square miles, home to Harvard 
and MIT, thousands of students, lots of biotech and high-tech, 
and a high demand for housing. Our housing prices are 
stratospheric. We have a two-bedroom unit range right now of 
between $1,450 and $3,500 in the community. In addition, the 
average sale price of a condo, which accounts for most of the 
market, is up over $570,000. In that kind of real estate 
market, there is pressure to even keep the hard units that we 
have in place in Cambridge.
    And how have we responded to that? Through MTW, we have 
project-based 852 vouchers to keep those properties available 
for low-income families. And, in probably one of the most 
unique alliances I have ever had the privilege to participate 
in, we have been able to preserve expiring-use multifamily 
properties for low-income by project-basing vouchers into those 
buildings using our MTW authority. And that was an activity we 
never even dreamed of when we started the program. It has been 
very successful, and we did 130 units of that just last year 
alone.
    We currently assist about 4,500 families in Cambridge: 74 
percent are extremely low-income; and 45 percent are senior-
disabled. The families pay a healthy rent, on average around 
$390 a month.
    And we are unusual in that we have about 46 percent of our 
families with earned income. And when we saw that, we said, 
well, what is a package that we can put together to use MTW to 
assist those families? The first thing we did was simplify the 
rent rules to allow families to keep more of the income they 
earn and to encourage asset-building. If you look at the 
regulations that come out around public housing, there is very 
little in there that encourages people to save and build assets 
and encourages them to work, with a few exceptions.
    We also use public housing subsidies that are modified to 
support the mentoring and coaching programs that we are 
involved with with our nonprofit partners. And, in doing that, 
we modify the size of the subsidy, how long the duration, and 
we change that subsidy to tie into the economic mobility 
advancement of the family. It is very flexible and very helpful 
in terms of dealing with families who are on the path to self-
sufficiency.
    Our process is very public. We have public meetings on all 
of these items. I had a resident leader tell me just last week 
that she felt she could influence policy more with MTW than in 
any other public context she has had the opportunity to 
participate in--a very powerful statement that I wanted to 
share with the committee.
    My last comments are around evaluation and monitoring. We 
think there is more that can be done, and the MTW agencies are 
already working amongst ourselves and with HUD to do this. We 
can make better use of the existing plans and reports.
    This is the report I will be turning in to HUD in a few 
weeks. It tells you everything we did in the last fiscal year; 
it documents it. And we think that access to this information, 
in cooperation with HUD, would be very beneficial to the 
program and address some of the concerns that the GAO has 
noted.
    With that, I want to conclude my testimony and thank the 
committee for the opportunity to speak.
    [The prepared statement of Mr. Russ can be found on page 53 
of the appendix.]
    Mr. Luetkemeyer. Thank you, gentlemen, for your testimony.
    And, with that, I will begin the questions. I will yield 
myself 5 minutes.
    Mr. Woods, thank you very much for your very passionate and 
very thorough testimony today.
    We are highlighting the need to reform public housing, the 
model. You state an expectation of lifetime entitlement by the 
non-elderly, non-disabled has been created, and this 
expectation is passed from one generation to the next. As a 
result, there is an inability to assist those families who have 
been on the waiting lists.
    What would the MTW Program mean for the housing authority 
in Winston-Salem to address that problem and others?
    Mr. Woods. We think that if we were an MTW agency, we could 
help families who are highly motivated to move forward, to 
increase their family income. We would require all able-bodied 
eligible adults in that household to be involved in the PATH 
Program.
    The PATH Program is not just for adults, though. It runs 
from cradle through college. We have both the Forsyth Community 
College involved, the Forsyth community school system involved. 
We have foundations involved. We have a lot of resources 
available to residents.
    Our biggest problem right now is we have no way to require 
residents to participate at all. Residents can live in public 
housing right now without having any responsibility of becoming 
self-sufficient. As a result, our waiting lists are being 
backed up, and we cannot help as many families as we choose.
    We believe that by being an MTW Program, we could put in 
rules and regulations and still protect the most vulnerable 
families in our communities, help them to become self-
sufficient, help them move through a public housing assistance 
program, and ease them slowly back into mainstream housing, 
thereby reducing their dependency on the Federal Government, 
and breaking the cycle of poverty.
    Everybody agrees that the way you break the cycle of 
poverty is both through education and employment. Volunteerism, 
watching someone's children does not bring income into 
someone's family.
    Mr. Luetkemeyer. You mentioned a number of agencies that 
you work with. Do they come to you, or do you go to them?
    Mr. Woods. What we did in Winston-Salem after the last 
testimony here, I looked within my own community to see exactly 
what is the best way of mobilizing agencies. We identified our 
local workforce development agency, which is already funded by 
the State.
    They have 30 separate agencies under their umbrella, 
agencies that provide GED assistance, job training assistance, 
after-school programs for adults, ex-offender programs, 
substance abuse programs. We have groups like the Urban League. 
We have groups like Goodwill, Best Choice Center, Head Start, 
day care.
    We went into an intergovernmental agreement with them at no 
cost, that they are already funded. What they agreed to do is 
to provide these services to our residents. We identified 729 
households that would be eligible for these programs. I went 
out personally to three developments twice, had community 
meetings. I sent staff out, knocked on everyone's door. I would 
tell you today, right now, we have 15 participants, period.
    Mr. Luetkemeyer. Okay. MTW would not stymie what you are 
trying to do here either, right?
    Mr. Woods. Actually, it would help us.
    Mr. Luetkemeyer. It would enhance it?
    Mr. Woods. It would enhance it because we would have 
certain requirements. Right now, there are no requirements for 
participation.
    Mr. Luetkemeyer. In your testimony, you gave a nice list of 
about 12 different things that really, you believe, would help 
you with the implementation of all these things. It is a very 
extensive list, and we appreciate your thought there.
    Mr. Nackerman, I have a quick question for you. You are in 
the program. Can you give me an example of the flexibility and/
or the cost savings of some things that you are able to do 
because of this?
    The word ``flexibility'' is thrown around, but I never 
heard a concrete example of what you actually can do with that 
flexibility.
    Mr. Nackerman. Yes, Mr. Chairman. I would start by 
mentioning that we are in the third worst foreclosure spot in 
the United States, and we have had $21.4 million cut from our 
HUD budgets over the past 5 calendar years. Yet we are serving 
more people with less money, just like everybody talks about 
doing.
    But some of the specific things that we are doing: We are 
eliminating very dated programs. We are, on a trial basis, 
doing time limits for some adults. We only do income 
examinations on people with fixed incomes. I emphasize the term 
``fixed.'' Why would you have to take a senior in and 
practically do their--it is like doing your income taxes just 
to calculate their income once a year. We do that every 2 or 3 
years now. That is saving money.
    So we have saved at least $300,000 a year in staff time. We 
very carefully measure the hours in the very report that my 
colleague just mentioned that we give to HUD every year. And we 
have many, many other examples.
    Mr. Luetkemeyer. Okay. Very good.
    I want to set a good example here. I am out of my time, 
and, with that, we will go to Ranking Member Capuano--oh, I 
yield to Mr. Clay. Excuse me.
    Mr. Clay. Thank you. Thank you, Mr. Chairman.
    And I want to thank the panel for participating in this 
hearing today. Let me start with Mr. Woods.
    And welcome back, Mr. Woods. A recent Wall Street Journal 
article stated that the average length of stay for non-
disabled, non-elderly voucher recipients at the housing 
authority was nearly 8 years. Recent HUD studies have shown 
that this number is 5\1/2\ years for voucher holders.
    Is this number consistent with the median length of stay in 
your agency?
    Mr. Woods. In Winston-Salem, ours today is approximately, 
for the housing choice voucher, about 8 to 10 years.
    Mr. Clay. Okay. Now, under an MTW Program that you 
envision, how long do you predict the stay would be? Could you 
actually transition these recipients?
    Mr. Woods. Our MTW Program will allow for a 7-year 
transition. Our goal is to develop alternative housing through 
a goal through diminished support over a 7-year period while 
bringing up families' income and their educational level to a 
point where they can move either into market rate units or into 
other affordable units that are below market rate that we would 
develop or partner with other agencies on.
    And I want to be very clear. I am not here to blame the 
victim.
    Mr. Clay. Yes.
    Mr. Woods. I believe they are following the existing rules 
and regulations. They are in full compliance with the law. 
These rules and regulations are just outdated.
    Mr. Clay. What about the other program that requires that 
any construction going on, that a percentage of those 
construction jobs be given to housing authority tenants? Have 
you experienced that program?
    Mr. Woods. Yes, we have. We have a project going on right 
now, which is our first STEP-UP development unit. We partnered 
with our workforce development agency who had underneath our 
construction site anyone in the community, particularly public 
housing residents, who were interested in a construction job to 
contact them, to get assessed, so that when the general 
contractor was hiring local labor, they would pull from that 
pool.
    We got zero participation from public housing residents. 
And the reason why, once again, the comment we received the 
most was that they were not required to participate.
    Mr. Clay. Okay. Thank you for your response.
    Mr. Reed, how has your experience been? Are the Wall Street 
Journal numbers close to what your authority has experienced?
    Mr. Reed. Yes, when you look at the Abilene Housing 
Authority, I think there is a dynamic that is a little 
different than some of the other housing authorities that are 
here. Some of these guys are from larger housing authorities. I 
am from a large housing authority but at the very lower end of 
a large housing authority.
    So, in our community, we are looking at about 3 years as 
the average stay for a person on the program. Our rates in 
terms of employment are typically a little bit higher than the 
State's and also for the entire country. We have about 56 
percent of the families on our public housing program who are 
employed currently, and about 32 percent of the folks on our 
voucher program have earned income, as well.
    So we are a little different dynamic than what you are 
going to find at some of your larger housing authorities and 
whatnot, so--yes?
    Mr. Clay. You also cover a 20-county region; is that what 
you said?
    Mr. Reed. Correct.
    Mr. Clay. Okay. Now, do they transition out and go on to 
their own housing?
    Mr. Reed. Yes. The 3-year time frame is for everyone, the 
entire 20 counties that we service.
    Mr. Clay. Okay.
    Mr. Nackerman, what has been your experience? How long is 
the length of stay of your tenants?
    Mr. Nackerman. Because we are in an MTW Program, we 
carefully measure everything with our partner, Loma Linda 
University. And that is the same for all of the newer MTWs, for 
sure. Our average stay in the Section 8 Program is 7.4 years.
    And I will mention that this is a great example of the 
reason to have MTW, that those numbers will vary so much from 
housing authority to housing authority. There are cities, like 
Santa Monica in California, where nobody ever moves, I think. 
They have rent control.
    But if we move that 7.4 years to 4.4, we conceptually house 
approximately 1,500 more people over that 5-year or 4.4-year 
period. If you had to build new units to house those 1,500 more 
people, that would be over $110 million just to build more 
units to house that many people--upfront costs, by the way, not 
subsidy costs.
    Mr. Clay. Sure.
    Mr. Nackerman. So, the stereotypes of people staying for 
generations are sometimes true, sometimes not. But the 
economics of moving people through programs, as opposed to 
stagnation, and having incentives to move through the programs 
have a real great economic bottom line.
    Mr. Clay. And I thank you all for your responses. My time 
is up. Thank you.
    Mr. Luetkemeyer. Thank you.
    I now recognize the gentleman from California, Mr. Royce, 
for 5 minutes.
    Mr. Royce. Thank you, Mr. Chairman.
    There are many, many stories of families with heartbreak, 
with job loss and homelessness. We need more positive stories 
of recovery and return to self-sufficiency. And with the Moving 
to Work Program, Section 8 does have the potential now to be 
viewed not as another entitlement program but as an empowerment 
program. And I think that is what is interesting about these 
stories.
    And, Mr. Nackerman, your staff has related the story of 
Yvette from Chino, a mother of three providing for her family 
by driving a bus for the local school district there. Yvette 
had been living in an affordable housing complex since July of 
2000, but she cherished the dream of owning her own home. And 
through the help of your agency and, in particular, the family 
self-sufficiency program made possible through Move to Work, 
Yvette this year was able to realize that dream and purchase 
her own home free of any rental subsidy.
    And so I was going to ask you a couple of questions, but 
the first is, what obstacles were removed by Move to Work that 
made Yvette's story possible?
    The second I was going to ask you is, have you seen more 
success stories like this one? Because when you relay that type 
of a story, it helps us to better understand exactly why the 
program works.
    And, also, specifically, what has been the reaction to your 
time limits, to the focus on helping residents get up and out?
    Those were the three questions I was going to ask you.
    Mr. Nackerman. Thank you, Representative Royce. Let me 
start with Yvette and our homeownership program.
    MTW, it gets a little technical, but it allowed us to do 
some things like take this traditional family self-sufficiency 
program, where you put money in an escrow account over years 
instead of having your rent raised, we used MTW to actually 
make that account much more flexible. You can actually draw the 
money over those 5 years if you have some kind of emergency. 
And we also have incentives that go beyond 5 years. So we took 
a traditional HUD program and made it better.
    We are one of the biggest homeownership housing authorities 
west of the Rockies. We sell between one and two houses a month 
to public housing and Section 8 residents.
    People don't give these residents enough credit. There are 
many residents who work and many residents who need a helping 
hand. So people like Yvette are happening one to two a times a 
month.
    To answer your--another kind of interesting element of MTW 
on the homeownership side is we are able to, once a year, kind 
of ask HUD to modify regulations that customize them towards 
our homeownership program. And HUD sometimes says no. The idea 
that HUD doesn't monitor this is--that GAO account I would 
encourage you to read. It is over a year old now. HUD agreed 
with every finding but one at the time. They are now running 
with it. So the idea that it is not monitored is a little bit 
of a stretch.
    How our residents are reacting to the 5-year lease 
assistance program, which is what we call it--I am really 
surprised myself how the residents are embracing the fact that 
they have a life coach when they come in the door, that they 
have somebody who cares about their life and is going to help 
them over the next 5 years, that we have a bigger and bigger 
quiver of resources in order to help that family. So the 
residents are very positive about this.
    We are a year-and-a-half into it, I should caution you. 
Tulare County near us has been in it for many years. But the 
residents' reaction is overwhelmingly positive that the housing 
authority is going to be a part of their lives for that 5 years 
and that we have an individual case plan for each resident for 
improvement over that 5 years. And, most importantly, at the 
end of the 5 years, we will have all kinds of ways to continue 
if you haven't been successful versus just ending the process 
cold.
    Mr. Royce. Thank you, Mr. Nackerman.
    Mr. Chairman, I yield back.
    Mr. Luetkemeyer. Thank you.
    With that, we will recognize the gentlelady from Ohio, Mrs. 
Beatty, for 5 minutes.
    Mrs. Beatty. Thank you, Mr. Chairman, and Mr. Ranking 
Member.
    Let me say to all the gentlemen present, thank you for your 
testimony and for allowing us the opportunity to hear your 
stories, especially those in public housing authorities.
    Let me also disclose that for about 20 years, I was a 
consultant to public housing authorities in Ohio. So I have had 
an opportunity, whether it was Section 8, whether it was one of 
the training and work programs, to see firsthand your work.
    And, oftentimes, those lessons learned are not documented 
in an analytical way that can be presented. Thus, in reading 
about Move to Work, I have two basic questions. For me, it was 
always difficult to discern when you talk about self-
sufficiency, what that really means to a person who is not in 
the system, someone who is not in leadership at a public 
housing authority.
    And so I guess my question is, I have looked through the 
documents and I have listened today, and I have heard a double-
digit number of times, ``We have moved people to self-
sufficiency.'' I guess I would like to know if you have a 
definitive definition.
    I can remember working with the public housing authorities 
and using ``self-reliant,'' when the person could become more 
self-reliant was easier to be defined. So I want you to think 
about that.
    Also, you see that a lot when you talk about Move to Work. 
And I am a big proponent of Move to Work. I think it makes a 
difference. I think it is creative. And it is moving us from 
what we were doing 20 and 30 years ago when I was there.
    But, with that, my second question is, when I look at the 
Move to Work Program and I look at the fact that the public 
housing authorities have to have 5,000 units or less--I am from 
Ohio. So in Ohio, we have--in Columbus, Ohio, we have more than 
5,000 units, just a little more, but we are not allowed to 
participate in the program.
    I like the word ``flexibility,'' so you know where the 
question is going. Do you think, or can you help me figure out 
so I can make my public housing authority folks happy with me, 
if there would be any consideration to having a waiver or 
allowing those housing authorities with 5,000 or more to 
participate?
    Because one of the critical things is that you don't have a 
sophisticated system to document in an analytical way the 
lessons learned. So now to have to create this only for about 1 
or 2 percent of the public housing populations would be, for 
me, a good argument to have some type of guidelines to let 
public housing authorities with more units be engaged.
    And we can start with any one of you.
    Mr. Woods?
    Mr. Woods. Thank you.
    I like your definition, or your comment about ``self-
reliant'' versus ``self-sufficiency.'' I think that makes a lot 
of sense. Our PATH Program, in thinking about it, is geared 
toward helping reduce family dependency on government support. 
That is how we say we are trying to help someone become more 
self-reliant or self-sufficient.
    Your experience in Ohio has been our experience in Winston-
Salem. I started in 2006. I received a phone call from my local 
Greensboro office that said, guess what, there is a NOFA out 
concerning Moving to Work applications. We wanted to apply. 
Back then, we found out we were too small. Two years later, we 
got the call once again, and now we were too big. So I share 
the frustration that you share.
    We believe that MTW--and we have contacted many MTW 
agencies around the country. It is amazing that residents 
respond extremely well under a structured program to trying to 
improve their lives when it becomes a requirement. Though I 
complain about lack of participation, I received that same 
comment in many MTW agencies in the past prior to becoming MTW. 
They become MTW; you then interview their residents. They are a 
complete turnaround. I am a full proponent of MTW.
    Mr. Reed. Under the definition of ``self-sufficiency,'' I 
would really define it as a person being able to leave the 
program.
    We had one individual lady who joined the program who was 
divorced, had several kids, and utilized the housing choice 
voucher program because of a low subsidy. She joined our FFS 
program to redevelop her job skills, volunteered at a 
department store, and then actually was hired on as a manager 
making over $50,000.
    She didn't have to move off the program right at that 
particular point, but she wanted to give another family an 
opportunity to be able to utilize that spot who may need that 
spot, and she actually moved off of the program.
    So when I look at self-sufficiency, I am really looking at 
a family who is able to do it financially, on their own, and to 
really make it happen. And, kudos to her. She really made it 
happen.
    Mrs. Beatty. Thank you.
    Mr. Luetkemeyer. Thank you.
    Next, we will recognize the gentleman from California, Mr. 
Miller, for 5 minutes.
    Mr. Miller. Thank you, Mr. Chairman.
    This kind of reminds me of the song, ``Now the Times, They 
Are A-Changin'.'' Because when I remember when I first started 
this--you do, Mr. Woods, where none of my friends on that side 
of the aisle would support it. They thought I was a demon 
trying to throw people out in the street. You remember this. 
And I am so glad to hear the testimony, because we need to 
focus on how we can really help people.
    And this is probably the most bipartisan issue I have ever 
seen. There are three major housing authorities, CLPHA, PHADA, 
and NAHRO, and all three of their organizations support Move to 
Work. And I don't think I have ever seen anything like this, 
which is really, really a good thing.
    And another thing we have been fighting for is, we want to 
help people become self-sufficient. And another argument I have 
had for years, that we do everything wrong to make sure that 
can't happen.
    For an example, if you want to build an apartment complex 
today or a townhome, condo, or apartment today, you have to get 
an FHA-insured construction loan, because nobody will lend 
money if you are not insured by FHA. Yet, FHA reads the law 
wrong. They require every FHA loan to be Davis-Bacon. Now, I am 
not anti-union. I am just saying that the law says that if 
government dollars are expended, they need to be expended 
through Davis-Bacon. But FHA is not spending any money; FHA is 
merely guaranteeing a loan.
    And so we are saying we want to help you get people into 
self-sufficiency. Yet, by requiring this Davis-Bacon mandate, 
we are beating up the price of apartments and condos and 
townhomes by 20 to 25 percent, relegating people to where they 
are today and the exact opposite of what we are trying to do.
    And time limits has been the biggest argument I have heard 
people make against Move to Work. Mr. Nackerman, you testified 
that San Bernardino County implemented a new time limits 
program. How did you design it to ensure that it is useful and 
does not unintentionally harm the participants?
    Mr. Nackerman. Thank you, Congressman Miller.
    We are one of the few agencies in the country trying this. 
I want to emphasize that again. Sometimes, all MTWs are painted 
with this time-limit issue.
    This 5-year lease assistance strategy, again, is applicable 
only to non-senior and non-disabled households, are helping to 
change that premise, that you can really stay as long as you 
want. You know going in up front that you are going to have 5 
years. You know that there are some escapes from that 5 years 
at the end, with reason.
    But, as I mentioned, each household is given kind of a 
counselor or a life coach. And our university partner is 
creating a baseline for these residents. We found, as an 
example, Loma Linda University found that even some of these 
residents who are on disability want to be employed. We are 
advancing the quality of lives kind of on a case-by-case basis. 
Each resident signs and helps develop an improvement plan over 
time.
    And we have already had some great success stories. Renee 
Calloway allowed us to use her name. Her plan went into 
superdrive, and she already has a security job. She has already 
reconnected with the university. She will probably leave the 
program in less than a year because of Moving to Work.
    And then, again, the protections will be, if somebody 
doesn't try at all, that is not okay. We are looking for people 
who try, and to--and try to help. And if you think about it, 
the only way to really move through housing is to have higher 
economic income in that household, again, for the non-disabled, 
non-seniors.
    Mr. Miller. And one problem I have always had is that we 
have a system that people are involved in, yet other people who 
need the same assistance are kept outside the system for years 
and years because we are unable to move people to self-
sufficiency. And I believe time limits, where you have support 
services and proper hardship exemptions, can be a useful tool 
for motivating people.
    But, Mr. Woods, you talked about the situation you have 
been put in. If you were able to require participation in the 
PATH Program, with exemptions for the elderly and disabled, 
what would that mean for participants currently and the ones 
you would like to help?
    Mr. Woods. We are in a unique position in Winston-Salem. 
Currently, we have a new medical research park that is under 
construction. It is targeted to employ 27,000 to 30,000 new 
employees within our City. The bus transportation that runs 
through that research park actually stops at three of our 
larger public housing developments. The closest one is actually 
a 5-minute bicycle ride; the furthest is no more than a 15-
minute bus ride.
    We have Winston-Salem State and Forsyth Community College 
that has guaranteed to put a small campus, train, assist the 
lab technicians, get janitors. Anyone who finishes that program 
will be guaranteed a job.
    So we have an opportunity here. With MTW, we could require 
participation. It would open up a world of career 
opportunities, employment opportunities, raise family income 
levels--
    Mr. Miller. And those people who are unserved out there, 
how--
    Mr. Woods. That is my biggest issue.
    Mr. Miller. That is mine.
    Mr. Woods. And I have a waiting list. Again, we opened up 
in 2010. I am only around about 4,200 that I still haven't even 
processed yet.
    Mr. Miller. My time has expired, but these are good men, 
Mr. Chairman, who want to be trusted to help the people who 
need help in this country. And I think we as a committee and as 
a Congress need to do everything we can to support them.
    I yield back the balance of my time.
    Mr. Luetkemeyer. Thank you, Mr. Miller.
    With that, we will yield 5 minutes to the gentleman from 
Massachusetts, the distinguished ranking member, Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman.
    And I thank the panel for being here.
    I am a former mayor of my city. We used to get CDBG money 
and other Federal funds. I empathize very strongly with the 
idea of getting a little more flexibility and getting the 
Federal Government off your back a little bit.
    At the same time, I also know that there were other cities 
that got Federal money where people went to jail for misuse of 
that money. So that is the balance of reporting and keeping 
some kind of a thing. Which I know you know that, because all 
public housing authorities have to do that.
    I also--it is my understanding that HUD joins all of us in 
wanting to expand the MTW Program. I am not aware of them being 
opposed to it at all, with one caveat: They want the resources 
to be able to do it. And it is my understanding they have three 
people currently on staff dedicated to MTW. There is no way 
they can expand the program unless they get the proper 
resources, as none of you could expand any program you ever 
wanted unless you have the resources.
    So I think we are all on the same page, as far as that 
goes. But let's be honest. If we are going to expand this 
program, we have to understand that we have to empower HUD to 
actually do a reasonable and decent job doing it.
    Mr. Nackerman, you have had the MTW for several years now. 
Do you still have a waiting list?
    Mr. Nackerman. Oh, yes. We have 32,600 people on our 
waiting list.
    Mr. Capuano. Okay. Thank you.
    Mr. Russ, do you have a waiting list?
    Mr. Russ. I do, Congressman, about 10,000 people.
    Mr. Capuano. All right.
    So I ask that question because, though, again, I am a 
supporter of MTW, let's not pretend that it is the panacea and 
answer to every issue that faces people with housing problems. 
We will still have a waiting list. It will be a shorter one. We 
will be able to serve more people, and I think that is a good 
thing. But you are still going to have waiting lists. There is 
still going to be more that we can do.
    Mr. Nackerman, I believe you said you have lost $24 million 
of Federal money in the last few years?
    Mr. Nackerman. Yes, sir, $21.4 million.
    Mr. Capuano. $21.4 million.
    Mr. Reed, have you lost Federal money in the last few 
years?
    Mr. Reed. Yes, we have.
    Mr. Capuano. Several million dollars? A million dollars?
    Mr. Reed. About a million dollars.
    Mr. Capuano. Okay.
    Mr. Woods, have you lost Federal funds?
    Mr. Woods. Yes, we have.
    Mr. Capuano. Mr. Russ, have you lost Federal funds?
    Mr. Russ. Yes, we have.
    Mr. Capuano. So what if I told you that I would bring you 
back to the level that you were 3, 4, 5 years ago, whatever it 
was, could you do more with that money? Or would it just be 
wasted money? Would you not be able to service more people on 
the list?
    And I know the answer. We all know the answer. The answer 
is, yes, of course you could. And, again, I say for the same 
reason.
    MTW is a good program. I don't know why we couldn't pass an 
expansion 2 years ago. I don't know what the holdup is now. I 
don't know why we have to reinvent the wheel.
    Mr. Russ, are you familiar with the stakeholder compromise 
that was on the table in 2011?
    Mr. Russ. I am, Congressman.
    Mr. Capuano. Mr. Woods, are you familiar with it?
    Mr. Woods. I am familiar with it.
    Mr. Capuano. Mr. Reed, are you familiar with it?
    Mr. Reed. Yes, somewhat.
    Mr. Capuano. Mr. Nackerman, are you familiar with it?
    Mr. Nackerman. Yes, I am, and I would love to comment on 
it.
    Mr. Capuano. If we could pass that tomorrow, as is, not 
that you get everything you want, would you suggest I vote yes 
or no, Mr. Nackerman?
    Mr. Nackerman. I would suggest you vote no.
    Mr. Capuano. Why?
    Mr. Nackerman. The stakeholder agreement did not include 
many stakeholders, for one thing. We have many resident 
organizations in California, as you might expect. None of those 
resident organizations were involved in any kind of stakeholder 
agreement.
    There are some items in the stakeholder agreement, we think 
it may add bureaucracy to a program that is attempting to 
streamline. Also, there are some really dangerous things in the 
stakeholder agreement where it doesn't really mirror the MTW 
Program that we have now, so you are, in essence, creating a 
brand-new complicated program.
    So I don't want to dismiss it completely. I think there are 
some great core pieces that we can work with there. But I think 
that is--
    Mr. Capuano. Do you think it is a place we should start 
with or a place we should just throw it out and start from 
scratch?
    Mr. Nackerman. I think we should take one step back to some 
of the earlier iterations of that bill and then move from 
there.
    Mr. Capuano. Okay.
    Mr. Russ, how do you feel about it?
    Mr. Russ. I will give you an honest answer.
    Mr. Capuano. I would like an honest answer.
    Mr. Russ. Yes. I have mixed emotions about the stakeholder 
agreement. I like the agreement because it brings more agencies 
into the portfolio. I think that is very, very important. And 
for me, or for our organization, that trumps what I would echo 
that Dan said, that there are elements of that agreement that I 
think are very, very complicated and would, in fact, really 
radically change the program.
    I am not opposed to that if it advances the opportunity for 
more agencies to get Moving to Work, and in the end that is why 
I decided to support it. But there are things in the agreement 
that I think deserve further attention.
    Mr. Capuano. Yes.
    Mr. Woods, how would you feel about it? My time is actually 
up, but--
    Mr. Woods. I would also have mixed emotions about it. I 
think that the basic MTW portion of it does provide the 
flexibility, but it doesn't give you the ability to make the 
necessary policy changes that are really key, a key factor in 
changing the lives of individuals, to helping families move 
through the system. That is a big problem for me. That is a 
huge problem for me.
    Mr. Capuano. My time is up, but, Mr. Reed, I would like to 
hear your opinion, as well.
    Mr. Reed. Okay. I have mixed emotions, as well. I think 
some of those pieces and share some of the sentiments of my 
colleagues, that there is some flexibility allowed, but there 
are some things that would hold housing authorities back. I 
think more housing authorities should have the opportunity to 
have the full expanse, ability to utilize MTW at its best. So, 
mixed emotions right now.
    Mr. Capuano. Great. Thank you all very much.
    I thank the chairman for indulging me.
    Mr. Luetkemeyer. My pleasure.
    Next, we will recognize the gentleman from Wisconsin, Mr. 
Duffy, for 5 minutes.
    Mr. Duffy. Thank you, Mr. Chairman.
    I appreciate the panel being here today and I thank you all 
for your testimony. We are doing a fantastic job of shattering 
the reputation of this committee and of Congress to actually 
have such a beautiful ``Kumbaya'' moment, all agreeing that we 
should support MTW. And to have a panel who is in agreement, as 
well, is actually fantastic.
    I have to tell you, I would agree with the Assistant 
Secretary of HUD when she was talking about rental assistance, 
talking about moving in, moving up, and moving out. And I 
appreciate the reality that you all deal with in shrinking 
budgets as we sit in difficult times. I realize how much more 
strain that puts on all of you to do your jobs and do them well 
and serve folks in your community who are in need.
    We are faced continuously with trillion-dollar deficits, a 
$17 trillion debt. And we have to look around our agencies and 
ask, how can we ask everyone to do more with less, how can we 
ask everyone to be more efficient and still not let people fall 
through the cracks, still have a system that helps people who 
fall on hard times, have a safety net for them and, frankly, 
hopefully, have a trampoline for them where they can hit and 
bounce back up into a lifestyle that they can support.
    And it sounds like, as we are talking about MTW, that it is 
not necessarily, as the gentleman from Massachusetts was 
discussing, spending more money, which is always helpful. How 
can we find a program and ideas that will allow you to spend 
money more efficiently, to help more people be more effective 
in these very difficult budgetary times?
    And I appreciate everyone coming in and sharing your points 
of view. But is it fair to say that you all would agree that we 
should expand the MTW? To all of you. Yes?
    Mr. Nackerman. Yes.
    Mr. Duffy. I am not misreading the panel, am I?
    Mr. Reed?
    Mr. Reed. Yes.
    Mr. Scire. So the point that I would make here is that the 
MTW Program and how it might offer the opportunity to serve as 
a platform for demonstrating the efficiencies from these 
practices, these flexibilities, is not being optimized right 
now.
    So if you were to expand MTW, I think it would be important 
to build into it an evaluation component so that you can then 
take these practices that are working at one or more agencies 
and possibly apply them more broadly. And that is the 
opportunity for greater efficiency for those agencies that are 
not now MTW agencies.
    Mr. Woods. I would totally agree with the expansion of MTW, 
but my caveat is that there needs to be full flexibility within 
MTW and not limited flexibility.
    Mr. Duffy. Are you telling me, Mr. Woods, that you know how 
to better spend your budget than bureaucrats in Washington?
    Mr. Woods. Not to pat myself on the back, but the answer is 
yes.
    Mr. Duffy. You can pat yourself, that is fine.
    Mr. Russ. I would definitely support the expansion.
    And I do believe that there are two questions in the 
evaluation part of this that deserve some thought. The first 
is, and I would make sure that we all understand that the kinds 
of evaluations we are talking about are very difficult to do. 
If you are talking about sort of the gold standard social 
policy study, you are looking at probably a 5- to 7-year 
commitment and you are looking at funding someone, potentially 
the housing authority or HUD or some other group, to do that. 
And we must be cognizant that these studies will take time.
    I do think that the program as it currently exists has 
really demonstrated that it is a workable solution in the 
communities in which it is operating. And we could do more with 
the reporting structures we have now. The MTW agencies 
recognize that, and we are collaborating amongst ourselves and 
hope to continue collaborating with HUD to do that.
    And our long view, if I may offer that, is that part of 
what should come out of this, we feel, is an accreditation 
program. And the accreditation program would get to some of the 
fundamental issues that deal with not only evaluation but also 
things like the governance of the organizations that we all 
run. And we feel that the MTW platform is an ideal platform to 
help launch that idea.
    Mr. Duffy. And, Mr. Russ, I think that is good advice.
    I only have 25 seconds left. But, to the panel--we have a 
wealth of knowledge here--any downside risk to us if we make 
this move on a bipartisan level? Or any advice you have for us, 
as we have you all together, on how we could effectively make 
these changes?
    That is an open-ended question to anyone who wants to take 
it.
    Mr. Russ. I think you should go ahead and do it.
    Mr. Nackerman. I would just say, make sure that almost all 
agencies can get in, I think. There is a very few--this term 
``troubled'' or ``high performer,'' I would stay away from. I 
think all agencies can do this, except the very, very few that 
are completely mismanaged that would ruin our program if they 
got in.
    Mr. Reed. I know we are out of time, but I would like to 
bring up one point that I haven't heard.
    A lot of times, you have large housing authorities and then 
you also have smaller housing authorities. And the dynamic 
between the two is pretty significant. So if you talk about 
implementing a Moving to Work Program with all of the 
requirements and reporting requirements that are involved, some 
of your smaller housing authorities are going to struggle to be 
able to provide that type of information and continue to 
service the needs of the families that they have. So larger 
organizations have many more resources, but, again, the small 
guys don't have as much.
    Mr. Duffy. Good point.
    And my time has expired, but I want to thank you all for 
the good work you do and for coming in today and testifying. 
Thank you.
    I yield back.
    Mr. Luetkemeyer. Thank you.
    Mr. Stivers from Ohio?
    Mr. Stivers. Thank you, Mr. Chairman. I appreciate it.
    And thank you to the witnesses for being here.
    I want to follow up on something Mr. Reed just talked 
about, and it follows up on a question that my colleague from 
Ohio, Mrs. Beatty, asked earlier.
    But you just talked about some of these small agencies. 
And, as you know, the Moving to Work Program was recently 
expanded but limited to smaller agencies. And I am just curious 
how these smaller agencies are doing at utilizing the 
opportunities that are created by the program. And why 
shouldn't--and you guys have all kind of spoken to this 
already--there be more of a competitive opportunity and allow 
basically everyone into these opportunities of Moving to Work?
    I guess I will direct that one to Mr. Reed.
    Mr. Reed. Yes, I definitely agree that all housing 
authorities should have the opportunity to have full access to 
MTW. Again, my one caveat is that the smaller guys will 
struggle somewhat with some of the reporting requirements. So, 
as more definitive studies come out of the program and they 
look at different size agencies and how they are doing, that 
would be really good information to bring back to the housing 
authority and maybe make adjustments on the fly.
    But right now we are really experiencing a lot of funding 
shortages. And, really, one of the reasons that I would like to 
have access, with the size agency that I have, is because when 
we have full fungibility, if we are short from one pot of 
money, we can actually subsidize that with another pot of money 
without going through the reporting requirements that we do 
right now.
    So I don't have a lot of information on how the small guys 
have implemented the program. But those are a couple of things 
that we would be interested in.
    Mr. Stivers. And that gets me into, sir, my second 
question, which follows up on something that my colleague from 
Massachusetts talked about. And his point was, would you like 
to have all the money you had 8 years ago? I guess I would ask 
the converse of that. Which program is the best for you to 
utilize every single dollar you get, the standard program or 
the Moving to Work Program, for housing?
    And you can just go down through the list and let each of 
you say whether you think that the current program or Moving to 
Work would be a better way for you to utilize every single 
dollar you get in the best way possible to help your residents 
get positive outcomes and serve your mission.
    Mr. Nackerman. That is a fantastic question, because it 
really, again, hits the nail on the head as to each local 
housing authority has different issues. The housing authority I 
just came from was Marin County Housing Authority, really low 
on public housing budget. Now we have enough.
    So the site-by-site, place-by-place elements of Moving to 
Work allow us to balance those groups of HUD funds and survive 
things like sequestration. It is a huge--it is probably the 
first thing an MTW agency would do is combine their funding so 
they can weather the storm.
    Mr. Reed. Yes, I would echo those sentiments. Yes, we would 
definitely like to have the flexibility of MTW with the funding 
that we have had in the past. All the programs and some of the 
things that we have talked about already, it would give us more 
funding and financing available to assist families, create new 
developments, and a multitude of other things in terms of 
assisting families to become more self-sufficient.
    So there are a few programs, a transportation program, that 
I would love to get into. We had one individual lady on our 
program who was going to quit her job because she didn't have 
reliable transportation. So, we would definitely create 
programs like that.
    Mr. Scire. There have been several attempts to try to 
assess the impact of this program overall. None have been 
successful in doing that. So I think the verdict is really out 
right now as to whether or not, on net, the MTW Program 
agencies are doing more than they would have without the MTW 
flexibilities. I think that remains to be demonstrated.
    Mr. Woods. I totally agree with my colleagues. I believe 
that MTW is the solution at this present time.
    I believe that the income that is generated from there, for 
us in Winston-Salem, our goal is to plow those dollars back 
into our program to make our PATH Program self-sustaining, give 
us the ability to develop new housing opportunities so that we 
can serve more people. We cannot do that under existing rules 
and regulations. It is very prohibitive.
    Mr. Russ. I have two thoughts. The first is, it is money, 
honey, if you want to get along with me. And that is a--that is 
true. You would long for those days because there was more. But 
I have to be a realist. And, realistically, where we are now, 
it is a much more difficult position.
    I would say this. I would say with the additional money, or 
our current situation, we are managing to figure out how to do 
more things. The Preservation Program for the multifamily that 
I told you about, that is an activity that we would never have 
imagined. And it has a spillover effect that is very positive 
for the community.
    We are doing more. We are assisting families in very 
difficult circumstances that we normally couldn't assist. We 
have sponsor-based vouchers to assist the nonprofits in our 
community. There is a long list that my colleagues who have MTW 
share.
    And I would say there is a combination here, and it is 
pretty powerful. And, yes, would I use additional money? Sure. 
But where we are now, I believe we are doing more and we are 
using the resources to the best of our ability.
    Mr. Stivers. Thank you, Mr. Chairman. My time is gone. I 
yield back what I don't have.
    Mr. Luetkemeyer. Thank you.
    With that, I would ask unanimous consent to introduce into 
the record the following: a letter from the New York State 
Public Housing Authority Directors Association dated June 26, 
2013.
    Mr. Capuano, do you have a letter also?
    Mr. Capuano. Yes, from New York City.
    Mr. Luetkemeyer. Okay.
    Without objection, we would like to also introduce a letter 
of June 26, 2013, from the New York City Housing Authority, 
also to the chairman and ranking member.
    Without objection, it is so ordered.
    With that, I would like to thank each of the witnesses who 
appeared here today for your testimony. It has been excellent 
and enjoyable and informative. And I appreciate each of you 
taking the time to come to us with your ideas and concern and 
passion. I certainly appreciate it and certainly note it.
    Is there another letter?
    We have another letter to be submitted for the record, 
without objection. And it is a letter from Doug Guthrie, 
president and CEO of the Housing Authority of the City of Los 
Angeles, dated June 26, 2013.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    Without objection, this hearing is adjourned.
    [Whereupon, at 3:51 p.m., the hearing was adjourned.]


                            A P P E N D I X



                             June 26, 2013


[GRAPHIC] [TIFF OMITTED] T1770.001

[GRAPHIC] [TIFF OMITTED] T1770.002

[GRAPHIC] [TIFF OMITTED] T1770.003

[GRAPHIC] [TIFF OMITTED] T1770.004

[GRAPHIC] [TIFF OMITTED] T1770.005

[GRAPHIC] [TIFF OMITTED] T1770.006

[GRAPHIC] [TIFF OMITTED] T1770.007

[GRAPHIC] [TIFF OMITTED] T1770.008

[GRAPHIC] [TIFF OMITTED] T1770.009

[GRAPHIC] [TIFF OMITTED] T1770.010

[GRAPHIC] [TIFF OMITTED] T1770.011

[GRAPHIC] [TIFF OMITTED] T1770.012

[GRAPHIC] [TIFF OMITTED] T1770.013

[GRAPHIC] [TIFF OMITTED] T1770.014

[GRAPHIC] [TIFF OMITTED] T1770.015

[GRAPHIC] [TIFF OMITTED] T1770.016

[GRAPHIC] [TIFF OMITTED] T1770.017

[GRAPHIC] [TIFF OMITTED] T1770.018

[GRAPHIC] [TIFF OMITTED] T1770.019

[GRAPHIC] [TIFF OMITTED] T1770.020

[GRAPHIC] [TIFF OMITTED] T1770.021

[GRAPHIC] [TIFF OMITTED] T1770.022

[GRAPHIC] [TIFF OMITTED] T1770.023

[GRAPHIC] [TIFF OMITTED] T1770.024

[GRAPHIC] [TIFF OMITTED] T1770.025

[GRAPHIC] [TIFF OMITTED] T1770.026

[GRAPHIC] [TIFF OMITTED] T1770.027

[GRAPHIC] [TIFF OMITTED] T1770.028

[GRAPHIC] [TIFF OMITTED] T1770.029

[GRAPHIC] [TIFF OMITTED] T1770.030

[GRAPHIC] [TIFF OMITTED] T1770.031

[GRAPHIC] [TIFF OMITTED] T1770.032

[GRAPHIC] [TIFF OMITTED] T1770.033

[GRAPHIC] [TIFF OMITTED] T1770.034

[GRAPHIC] [TIFF OMITTED] T1770.035

[GRAPHIC] [TIFF OMITTED] T1770.036

[GRAPHIC] [TIFF OMITTED] T1770.037

[GRAPHIC] [TIFF OMITTED] T1770.038

[GRAPHIC] [TIFF OMITTED] T1770.039

[GRAPHIC] [TIFF OMITTED] T1770.040

[GRAPHIC] [TIFF OMITTED] T1770.041

[GRAPHIC] [TIFF OMITTED] T1770.042

[GRAPHIC] [TIFF OMITTED] T1770.043

[GRAPHIC] [TIFF OMITTED] T1770.044

[GRAPHIC] [TIFF OMITTED] T1770.045

[GRAPHIC] [TIFF OMITTED] T1770.046

[GRAPHIC] [TIFF OMITTED] T1770.047

[GRAPHIC] [TIFF OMITTED] T1770.048

[GRAPHIC] [TIFF OMITTED] T1770.049

[GRAPHIC] [TIFF OMITTED] T1770.050

[GRAPHIC] [TIFF OMITTED] T1770.051

[GRAPHIC] [TIFF OMITTED] T1770.052

[GRAPHIC] [TIFF OMITTED] T1770.053

[GRAPHIC] [TIFF OMITTED] T1770.054

[GRAPHIC] [TIFF OMITTED] T1770.055

[GRAPHIC] [TIFF OMITTED] T1770.056

[GRAPHIC] [TIFF OMITTED] T1770.057

[GRAPHIC] [TIFF OMITTED] T1770.058

[GRAPHIC] [TIFF OMITTED] T1770.059

[GRAPHIC] [TIFF OMITTED] T1770.060

[GRAPHIC] [TIFF OMITTED] T1770.061

[GRAPHIC] [TIFF OMITTED] T1770.062

[GRAPHIC] [TIFF OMITTED] T1770.063

[GRAPHIC] [TIFF OMITTED] T1770.066


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
